Department of Homeland Security
   Ofﬁce of Inspector General

            Annual Report to Congress on States' 

              and Urban Areas' Management of 

             Homeland Security Grant Programs





OIG-09-17                                       January 2009
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                       January 21, 2009


                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses the annual requirement to report to Congress on the results of audits
of individual states’ management of State Homeland Security Program and Urban Areas
Security Initiatives grants. It is a summary of 11 individual audit reports, including
findings and recommendations to the Federal Emergency Management Agency that states
take corrective measures and actions to improve their grant management programs.

It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.



                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations 


Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audits ................................................................................................................ 3 



     Financial Reporting ...................................................................................................... 4 

     Questioned Costs ......................................................................................................... 6 

     Monitoring and Oversight ............................................................................................ 7 

     Federal Procurement Practices ..................................................................................... 8 

     Measurable Program Goals and Objectives ................................................................. 9 

     Needs Assessments .................................................................................................... 11 

     Personal Property Controls ........................................................................................ 12 

     Other Grant Program Areas ....................................................................................... 15 

     Best Practices ............................................................................................................. 17



Appendices
     Appendix A:             Purpose, Scope, and Methodology ................................................... 19 

     Appendix B:             Audit Reports Included in this Report .............................................. 20 

     Appendix C:             Scope of State Grant Program Management Audits ........................ 21 

     Appendix D:             Report Distribution ........................................................................... 23 



Abbreviations
     DHS                     Department of Homeland Security 

     FEMA                    Federal Emergency Management Agency 

     FY                      Fiscal Year            

     OIG                     Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Public Law 110-53, Implementing Recommendations of the 9/11
                Commission Act of 2007, requires the Department of Homeland
                Security, Office of Inspector General to audit individual states’
                management of State Homeland Security Program and Urban
                Areas Security Initiatives grants and annually submit to Congress a
                report summarizing the results of these audits. This report
                summarizes audits of ten states and one urban area completed in
                Fiscal Year 2008.

                Objectives of the state audits were to determine whether each state
                (1) effectively and efficiently implemented the first responder
                grant programs, (2) achieved the goals of the programs, and
                (3) spent funds in accordance with grant requirements. For the
                urban area audit, the objectives were to assess whether the state
                established effective oversight and program monitoring, and
                whether urban area security initiative funding enhanced the area’s
                homeland security capacity as intended.

                The ten states and one urban area were awarded a total of
                $1.6 billion in Homeland Security Grants for the periods audited.
                Overall, the states did an efficient and effective job of administering
                the grant management program requirements, distributing grant
                funds, and ensuring that all of the available funds were used.
                However, individual audit reports identified areas for improvement,
                including financial reporting, questioned costs, monitoring and
                oversight, procurement practices, measurable program goals and
                objectives, needs assessments, and personal property controls.

                We made 88 recommendations for improvements and identified
                several effective tools and practices for possible use by other states.
                The Federal Emergency Management Agency concurred with 81 of
                the 88 recommendations, and subsequent explanations and actions
                have satisfied the intent of 2 of the nonconcurrences. The Federal
                Emergency Management Agency has been asked to reconsider its
                position on the remaining 5 nonconcurrences. Actions taken by the
                Federal Emergency Management Agency and the states have
                resulted in seven recommendations being closed; actions are
                underway to implement the remaining recommendations.

                Annual Report to Congress of States’ and Urban Areas’ 

                 Management of Homeland Security Grant Programs 


                                       Page 1
Background

             In accordance with Public Law 110-53, Implementing
             Recommendations of the 9/11 Commission Act of 2007, the
             Department of Homeland Security (DHS), Office of the Inspector
             General (OIG) is required to submit an annual report to Congress
             summarizing the audits completed regarding State Homeland
             Security Program and Urban Areas Security Initiatives grants
             awarded to states, territories, and the District of Columbia. This
             report summarizes the Fiscal Year (FY) 2008 audits on the
             management of Homeland Security Grants awarded to ten states
             and one urban area for the fiscal years indicated in Table 1.
             A detailed listing and an internet link to each report are included in
             Appendix B.

                        Table 1: Audits Included In This Report
                                         Fiscal Years    Grant Awards
              Jurisdiction
                                          Reviewed           (‘000s)
              New Jersey                 2002 - 2004        $115,265
              Pennsylvania               2002 - 2004         150,642
              Colorado                   2003 - 2005         156,252
              New York Urban Area        2003 - 2005         337,000
              Florida                    2002 - 2004         191,458
              Georgia                    2002 - 2004         115,181
              Ohio                       2002 - 2004         142,020
              Michigan                   2004 - 2006         129,070
              Utah                       2004 - 2006           55,613
              Arizona                    2004 - 2006         103,119
              Washington                 2004 - 2006         121,566
              Total                                       $1,617,186

             Homeland Security Grant Program

             The Homeland Security Grant Program is a grant program
             administered by the Grant Programs Directorate within the Federal
             Emergency Management Agency (FEMA). The program provides
             federal funding to help state and local agencies enhance their
             capabilities to prevent, protect, respond to, and recover from
             threats or acts of terrorism. Depending on the fiscal year, the
             program encompasses some or all of the following federal grant
             programs: the State Homeland Security Program, the Urban Areas
             Security Initiative, the Law Enforcement Terrorism Prevention
             Program, the Citizen Corps Program, the Emergency Management


             Annual Report to Congress of States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs 


                                    Page 2
               Performance Grants, and the Metropolitan Medical Response
               System Program Grants.

               State Homeland Security Program provides financial assistance
               directly to each state and territory to prevent, respond to, and
               recover from acts of terrorism. The program supports the
               implementation of the State Homeland Security Strategy to address
               identified planning, equipment, training, and exercise needs.

               Urban Areas Security Initiative provides financial assistance to
               address the unique planning, equipment, training, and exercise
               needs of high risk urban areas, and assist them in building
               enhanced and sustainable capacities to prevent, respond to, and
               recover from threats or acts of terrorism. Allowable costs for the
               urban areas are consistent with the State Homeland Security
               Program and funding is expended based on individual Urban Area
               Homeland Security Strategies.

               The overall objectives of the individual state audits were to
               determine whether the grant programs were implemented
               effectively and efficiently, achieved their grant goals, and funds
               were spent in accordance with grant requirements. For the urban
               area audit, the objectives were to assess whether the state
               established effective oversight and program monitoring, and
               whether urban area security initiative funding enhanced the area’s
               homeland security capacity as intended. (See Appendix C for
               details.)


Results of Audits
               Overall, the audits showed that the states did an efficient and
               effective job of administering the grant program requirements,
               distributing grant funds, and ensuring that all available funds were
               used in accordance with the congressional mandate. However, the
               individual audit reports also identified areas warranting
               improvements. We made 88 recommendations to the
               Administrator, Federal Emergency Management Agency for
               improvements in eight categories, outlined in Table 2. FEMA
               concurred with 81 of the 88 recommendations, and subsequent
               explanations and actions have satisfied the intent of 2 of the
               nonconcurrences. FEMA has been asked to reconsider its position
               on the remaining 5 nonconcurrences. Actions taken by FEMA and
               the states have resulted in 7 recommendations being closed;


               Annual Report to Congress of States’ and Urban Areas’ 

                Management of Homeland Security Grant Programs 


                                      Page 3
     actions are underway to implement the remaining
     recommendations.

                Table 2: Status of Audit Recommendations
                                         Agency
      Areas for           Number                       Status:
                                     Concurrence:
      Improvement         Issued                   Open Closed
                                      Yes      No
      Financial Reporting            14        14          0   13   1

      Questioned Costs               11        10          1   11   0
      Monitoring and
                                     14        12          2   12   2
      Oversight
      Federal Procurement
                                      2          2         0    2   0
      Practices
      Measurable Program
                                     13        11          2   13   0
      Goals and Objectives
      Needs Assessments               7          6         1    7   0
      Personal Property
                                     20        19          1   16   4
      Controls
      Other Grant Program
                                      7          7         0    7   0
      Areas
      Total                          88        81          7   81   7



Financial Reporting
     Our audit reports identified 4 states with financial reporting
     weaknesses and included 14 recommendations for improvements.
     The states have already taken actions to implement the
     recommendations and improve their processes.

     �	 The State of New Jersey and Commonwealth of Pennsylvania
        had untimely submission of Categorical Assistance Progress
        Reports. In several instances, states were either unable to
        locate the progress reports or were ineffectively managing the
        data submissions necessary to complete them. As a
        preventative measure, New Jersey required its staff to maintain
        a checklist of key events in the grant cycle. Pennsylvania will
        map the entire grant program to determine the grant flow
        process and develop a strategy for closing any gaps identified.

     �	 The States of New Jersey and Utah, and the Commonwealth of
        Pennsylvania had untimely submissions of Financial Status
        Reports. This occurred due to a lack of written guidance and

     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                            Page 4
    ineffective implementation of revised (shorter) submission
    deadlines. Improvements already implemented included New
    Jersey’s checklist of key events in the grant cycle and review
    process and Pennsylvania and Utah’s revision of procedures to
    accommodate the 30-day timeframe for report submission.

�	 The Commonwealth of Pennsylvania was cited for reporting
   Financial Status Report data that did not agree with the
   Commonwealth’s accounting system. The accounting system
   did not take into account any advances of funds or invoices
   received within the last 5 days of the month. These items,
   along with clerical and posting errors and liquidations of
   erroneous accounts, caused an overstatement in the
   Commonwealth’s accounting system. The Commonwealth
   implemented procedures and reconciliations to ensure that
   obligations are properly liquidated and all variances are
   documented.

�	 The State of Ohio was cited for not properly accounting for
   grant disbursements or submitting accurate Financial Status
   Report. The State was unable to periodically reconcile
   drawdowns from the federal account with expenditures
   recorded in the State’s accounting system. The conditions
   were attributed to the State not always using actual
   expenditures as recorded in the accounting system, not
   reconciling differences with expenditures and status reports,
   and misclassifying or making errors when recording subgrantee
   expenditures.

�	 Also in Ohio, one county had commingled FY 2002 through
   2004 grant funds with funds from other federal agency grant
   programs. As a result, the State could not ensure that the
   subgrantee funds were being appropriately accounted for, or
   used according to the grant requirements. The fiscal agent for
   the county placed several federal grants within the same fund
   without subaccounts to track the activity of each individual
   grant, and made postings to the accounting system without any
   considerations as to the purpose of the funds. This was initially
   reported in a 2005 Ohio Auditor of State financial audit, and
   remained unresolved at the time of our audit.

FEMA concurred with all 14 recommendations regarding financial
reporting. One recommendation has already been implemented
and closed. The remaining recommendations will remain open
pending completion of corrective actions by FEMA.

Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                       Page 5
Questioned Costs
     Our audit reports identified seven states and one urban area with
     unallowable and unsupported costs of $33.8 million, which
     comprised approximately 2% of the $1.6 billion in grant funds
     awarded. For six states, questioned costs were related to grant
     funds awarded in fiscal years 2002 through 2004. For one state
     and one urban area, questioned costs involved awards from
     FY 2003 through 2005. Specifically,

     �	 State of New Jersey: Questioned costs of $247,199 (out of
        $115,265,000) were due to a lack of supporting documentation,
        decentralization of records, and staff no longer available with
        the State or local jurisdiction to locate the documentation. The
        State subsequently submitted additional documentation to
        support most of the expenditures and has taken actions to
        implement an automated, web-based grants tracking system.

     �	 Commonwealth of Pennsylvania: Unauthorized expenditures
        of $721,317 (out of $150,642,000) were charged to federal
        funds not on the authorized equipment list. The
        Commonwealth did not sufficiently review items acquired to
        ensure compliance with grant terms. FEMA required the
        Commonwealth to conduct an investigation of costs, which is
        still pending.

     �	 State of Florida: Questioned costs of $517,127 (out of
        $191,458,000) were due to the State spending more than
        allowed under DHS grant requirements. The recommendation
        is open, pending corrective action by FEMA.

     �	 State of Georgia: A total of $23,300,000 (out of $115,181,000)
        were questioned costs: $13,300,000 were due to a lack of
        controls over centralized purchases and labor costs and
        ineffective monitoring and acquisition methods, while
        $10,000,000 were due to untimely and improperly obligated
        grant funds awarded in fiscal year 2004. FEMA concurred
        with the two recommendations regarding lack of controls, and
        nonconcurred with the recommendation regarding untimely
        and improper obligations of grant funds. Due to recent action
        by FEMA, one of the three recommendations is closed and two
        remain open, pending corrective actions and a request for
        reconsideration of the nonconcurrence.



     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                            Page 6
     �	 State of Ohio: Questioned costs of $23,190 (out of
        $142,020,000) were for a vehicle used for unauthorized
        purposes. The vehicle was used for daily commuting, making
        it unavailable in case of emergency. FEMA and the State
        concurred with the recommendation. The State verified the
        county’s need for the vehicle and no longer allows its use for
        daily commuting.

     �	 State of Michigan: Questioned costs of $33,800 (out of
        $129,070,000): $11,000 were questioned because equipment
        was not being utilized or maintained as intended, and $22,800
        were questioned due to an emergency response vehicle being
        used for daily commuting. FEMA and the State concurred
        with the recommendations. The State has planned corrective
        actions to resolve the recommendations.

     �	 State of Colorado: Questioned costs of $7,839,296 (out of
        $156,252,000) were due to unapproved transfers and
        commingling of grant funds for FYs 2003 and 2004;
        supplanting of grant funds for FY 2004; and unapproved
        transfers, commingling of funds, ineligible construction costs,
        and unsupported consulting costs for Urban Areas Security
        Initiatives grant funds in FYs 2003 and 2004. FEMA
        concurred with the recommendation without providing specific
        comments. The OIG is requesting corrective actions from
        FEMA to address the recommendation.

     �	 New York Urban Area: Over $1.15 million in accrued interest
        earned on grant funds advanced to New York City from
        October 2003 to December 2005 was not remitted to the
        federal government. The State was unsure as to when the
        interest needed to be remitted to the United States Treasury,
        but believed it was when the grant period closed. FEMA
        concurred with the recommendation and the interest has been
        returned to the federal government.

     FEMA concurred with 10 of 11 recommendations regarding
     questioned costs.


Monitoring and Oversight
     Monitoring and oversight weaknesses were cited in seven state
     audit reports, resulting in 14 recommendations for FEMA to
     require improvements in the states’ monitoring and oversight of

     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                            Page 7
     grant programs and processes. The reports also noted that
     Arizona, Michigan, and Colorado have implemented proactive
     measures to improve their monitoring and oversight processes,
     including developing policies, procedures, and program
     monitoring guidance; performing equipment reviews; and
     preparing a formal subgrantee guide for site monitoring efforts.

     �	 For six states, monitoring and oversight weaknesses occurred
        because the states’ emergency management organizational
        structures did not change with the addition of new homeland
        security grant responsibilities. Also, states did not have written
        plans to monitor financial or programmatic performance
        against strategic goals, or conducted infrequent monitoring and
        site visits to subgrantees.

     �	 State of Colorado: The State did not require local jurisdictions
        to submit progress reports and its monitoring generally did not
        cover programmatic issues, only financial issues. Colorado
        conducted site visits on an ad hoc basis, limiting them to
        verifying delivery and location of equipment purchased with
        grant funds.

     �	 New York Urban Area: New York did not have a citywide
        database for the Urban Areas Security Initiatives grant
        programs related to monitoring individual expenditures,
        interest collections, and on-hand assets, resulting in a paper-
        intensive monitoring and review process. An online database
        for grant expenditures will permit periodic independent
        verification of expenditures and facilitate monitoring and
        oversight activities. FEMA agreed to review specific fees to
        determine eligibility, but did not concur with recommendations
        to implement specific monitoring procedures, or develop and
        use an online database for monitoring. Subsequent
        explanations and actions by FEMA satisfied the intent of the
        recommendations, which were closed.

     FEMA concurred with the 12 of 14 recommendations regarding
     monitoring and oversight.


Federal Procurement Practices
     Of the 11 jurisdictions audited, only one state did not ensure that
     federal procurement regulations were followed. Specifically, the
     State of Ohio did not perform required cost analyses for several

     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                            Page 8
     noncompetitive procurements contracts. Also, a local jurisdiction
     did not notify the state of noncompetitive procurements, as
     required prior to awarding the contracts. The recommendations
     included highlighting, emphasizing, and transmitting the federal
     requirements to applicable state agencies and subgrantees, and
     establishing and implementing procedures to ensure federal
     requirements are followed by grant recipients for noncompetitive
     procurements exceeding $100,000.

     FEMA concurred with the two recommendations regarding federal
     procurement policy.


Measurable Program Goals and Objectives
     Five audits included 13 recommendations to improve grant
     management procedures concerning measurable program goals and
     objectives. Although four of the five states have made some
     advances in measuring goals and objectives, the states needed to
     demonstrate progress in achieving goals and objectives, and
     measuring improvements in local jurisdictions’ capabilities in
     terms of equipment, training, and exercises. Some states’ needs
     assessments were flawed or not clearly defined; other states did not
     assign necessary resources to address the complexities of
     developing needs assessments, emphasize the requirement, or view
     it as a FEMA requirement. Also, states did not establish or require
     local jurisdictions to establish specific objectives.

     �	 State of Colorado: The State has taken steps to acquire needed
        equipment and to establish preparedness exercise and training
        programs. However, it has not ensured equipment readiness or
        effective exercise and training program implementation. The
        State did not identify areas for improvement or ensure the
        adequacy of corrective actions. State officials agreed with the
        findings and noted that they had developed and implemented
        policies and procedures for equipment monitoring. Training
        and exercise functions are also being assessed, with a plan in
        progress for improving both programs.

     �	 State of Ohio: The State’s list of statewide goals and
        objectives did not provide an adequate basis for measuring
        improvements in the capabilities of local first responders to
        respond to terrorist attacks involving weapons of mass
        destruction. The State did not develop measurable goals and


     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                            Page 9
    objectives or a systematic method to collect performance-
    related data.

�	 State of Michigan: The State’s established list of goals and
   objectives, although approved by FEMA, did not provide an
   adequate basis for measuring improvements in local grantee
   capability in terms of equipment, training, and exercises.
   Michigan conducted initiatives from 2005 through 2007 to
   improve homeland security programs and capabilities,
   including establishing a quality assurance and evaluation
   process to assess the status of local, regional, and state
   programs and identify gaps.

�	 State of Georgia: The State’s Homeland Security Strategy was
   an incomplete document that contained inadequate or
   insufficient information or data. The strategy did not
   adequately or fully address evaluation processes for
   preparedness, goals, and objectives as required by DHS. In
   addition, it contained data inaccuracies that were not validated
   according to DHS instructions. The State did not agree with
   this finding, asserting that it complied with grant requirements
   and that DHS had approved the strategy. The State further
   commented that its emphasis was on administering the grant to
   effectively enhance capabilities according to the goals of the
   grant program. The State, however, along with FEMA, agreed
   with the recommendation to implement improvements in the
   performance measurement procedures.

�	 New York Urban Area: When viewed as a single entity, the
   urban area cannot measure the intended effect of using Urban
   Areas Security Initiatives funds to build an enhanced and
   sustainable capability to prevent, respond to, and recover from
   threats or acts of terrorism. Individual members of the urban
   area subjectively measured their successes and capabilities
   based on funding expended for equipment, training and
   exercises. However, the urban area did not prioritize funding
   for the collective projects, rate the preparedness of the urban
   area as a whole, or fully understand the rating system provided
   by FEMA to move from subjective assessments of capabilities
   to a more objective and quantifiable methodology. FEMA and
   the State did not concur with the two recommendations. The
   report, however, cited as noteworthy recent and ongoing efforts
   by the State, the working group, and departmental agency
   representatives to build an enhanced, sustainable homeland
   security capability.

Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                      Page 10
     FEMA concurred with 11 of the 13 recommendations regarding
     measurable program goals and objectives.


Needs Assessments

     Although the States of Ohio, Michigan, and Colorado have taken
     steps to improve their program readiness, maintain the results of
     needs assessments, and approve strategic plans, further
     improvements were necessary regarding the use of needs
     assessments. The audit reports identified the following areas for
     improvement and made seven recommendations:

     �	 State of Ohio: While the State compiled a comprehensive
        needs assessment, it did not use the results of the needs
        assessment as a basis for allocating grant funds to its counties.
        It also did not determine if counties were using grant funds to
        fill equipment shortfalls or gaps identified by the assessments,
        and did not establish priorities for the types and quantities of
        equipment the counties should buy with grant funds. The State
        concurred with the recommendations and in written comments
        indicated that in 2006 the State completed a comprehensive
        needs assessment, identified existing capabilities and gaps, and
        developed an enhancement plan that included investment
        justifications. FEMA did not concur with the recommendation
        regarding the use of grant funds to alleviate identified
        equipment shortfalls, and has been asked to reconsider its
        position.

     �	 State of Michigan: The State’s strategic plan, in place since
        2001, did not require local jurisdictions to link their
        acquisitions of equipment, training, and exercises to the needs
        assessments results or state-established priorities. Subgrantees
        were able to select from approved lists without regard to the
        needs assessments and priorities. In their written concurrences,
        the State cited planned actions to address the
        recommendations, including establishing a Regional Homeland
        Security Planning Board, and a Program and Capability
        Enhancement Plan.

     �	 State of Colorado: The State has taken steps to improve
        program readiness, but did not ensure that equipment readiness
        or exercise and training programs were based on risk and
        priorities. Subgrantees are responsible for overall equipment

     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                           Page 11
         readiness, but lacked guidance on equipment readiness
         requirements and did not always keep equipment inventories.
         In addition, State representatives responsible for exercises and
         training programs did not have a clear understanding of their
         assigned responsibilities and were not in compliance with the
         objectives and timelines of the State’s homeland security
         strategy. State officials agreed with the recommendation and
         noted that the Division of Emergency Management has
         developed and implemented new policies and procedures to
         assess training and exercise functions and a plan to improve to
         the programs.

     FEMA concurred with the 6 of 7 recommendations regarding
     needs assessments.


Personal Property Controls
     Our audit reports included 20 recommendations for FEMA to
     require eight states to take actions to strengthen personal property
     controls in their homeland security grant management programs.
     Improvements have already been made in the majority of the eight
     states to address the recommendations. Specifically:

     �	 State of New Jersey: The State did not have adequate
        documentation to support some of its expenditures. According
        to the State and local officials, this was due in large part to staff
        no longer employed by the state/local jurisdictions and
        available to locate the required documentation.
        Decentralization of records at the state level also increased the
        risk that improper expenditures could occur without detection.
        FEMA and the State concurred with the recommendation, and
        the State has implemented an automated, web-based Grants
        Tracking System to track all subawards for the entire life cycle,
        beginning with FY 2005 grants.

     �	 Commonwealth of Pennsylvania: Unauthorized expenditures
        were charged to federal funds because the agency did not
        sufficiently review the acquired items to ensure compliance
        with grant terms and lacked procedures to review maintenance
        agreements, spare parts, and other acquisition expenses.
        FEMA and the Commonwealth concurred with the
        recommendations. The Commonwealth is currently mapping
        the entire DHS grant program, which will determine the grant


     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                           Page 12
    flow process and identify gaps. Afterward, the Commonwealth
    will develop a plan to modify the process and close the gap.

�	 State of Florida: The State did not properly enter into
   Memorandums of Understanding with grant subrecipients
   because it did not have adequate controls to comply with grant
   funding obligation stipulations. Although FEMA concurred,
   the State disagreed with this recommendation, stating that
   FEMA’s guidance did not require every equipment recipient to
   be part of a memorandum of understanding with the State.
   This recommendation is open pending corrective actions.

�	 Also, the Florida Division of Emergency Management did not
   establish policies for controlling centrally purchased equipment
   distributed to local jurisdictions, resulting in a lack of
   accountability for the equipment. FEMA concurred with the
   recommendation, but the State disagreed. Nonetheless, the
   State has taken corrective measures to implement a process
   requiring each subgrantee to provide the State agency with a
   detailed budget worksheet, permitting review of eligibility
   against the authorized equipment list.

�	 State of Georgia: The State did not have effective controls
   over centralized equipment purchases made through the “prime
   vendor” program with the Defense Logistics Agency. The
   State did not adhere to guidance in the Code of Regulations
   regarding effective controls and accountability. The State
   disagreed with the finding, but along with FEMA concurred
   with the recommendations to review expenditures and improve
   controls. The State will perform an internal reconciliation
   regarding the use of the DHS-approved prime vendor as part of
   its implementation of the recommendations.

�	 The State of Georgia claimed costs from grant funds that were
   not allocable, or may be not allowable, due to a lack of
   effective controls over labor costs, performance monitoring,
   and acquisition methods. This may have resulted in
   government-incurred costs not attributable to the State’s grant
   performance. FEMA and the State concurred with the
   recommendation and will take the actions recommended.

�	 The State of Georgia did not obligate FY 2003 Parts I and II
   funds in a timely manner. The State disagreed, stating that it
   was compliant with guidance provided by the awarding federal
   agency. FEMA did not provide specific reasons for its

Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                      Page 13
    nonconcurrence with the recommendation to require the State
    to develop internal controls to ensure that funds are obligated
    to local jurisdictions according to grant timeline requirements.
    FEMA was asked to reconsider its nonconcurrence.

�	 State of Ohio: Four of the six counties reviewed had
   developed controls and accountability systems. However, the
   counties did not maintain controls and systems to safeguard
   personal property procured with grant funds or ensure that
   property was used solely for authorized purposes. This
   occurred because the State did not provide clear guidance to
   subgrantees and did not visit subgrantees to verify that the
   required safeguards were in place and that property was used as
   intended. The remaining two counties had established controls
   and accountability. FEMA and the State concurred with the
   recommendations, and State officials indicated that property
   controls and accountability requirements are being included in
   various grant-related guidance and presentations being given to
   a variety of state and local partners.

�	 State of Arizona: During FYs 2004 through 2006, the Arizona
   Division of Emergency Management withheld $7.1 million in
   grant funds from local jurisdictions to provide centrally
   procured training. These actions were taken without a required
   written memorandum of understanding between the State and
   local jurisdictions to document approval. Without such
   documentation, no determination can be made whether local
   governments authorized the State to spend a portion of the
   grants funds on their behalf. FEMA and the State concurred
   with the recommendation to implement control procedures to
   ensure that withheld funds are properly requested in writing by
   local governments, and that the State maintains such
   agreements in its records. In their written comments, State
   officials said they implemented controls during 2006 and
   incorporated DHS templates into the grant process to help
   comply with requirements.

�	 State of Michigan: The State did not enforce the requirement
   that subgrantees establish and maintain effective control and
   accountability systems. The State also did not fully explain or
   document reallocated FY 2003 Part II grant funds. Further,
   there was no assurance that millions of dollars of personal
   property procured with federal grant funds was adequately
   maintained and safeguarded or used solely for authorized
   purposes. FEMA and the State concurred with the

Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                      Page 14
         recommendations. In their written comments, State officials
         said they will require subrecipients to provide an inventory of
         all purchases as part of the onsite subrecipient monitoring
         review.

     �	 State of Washington: The State did not ensure that subgrantees
        established and maintained effective control and accountability
        systems. The State also did not ensure that property was used
        solely for authorized purposes or was ready for emergency
        response. FEMA and the State concurred with the three
        recommendations. In their written response, State officials said
        that language used in contracts since 2006 provides clear
        guidance as to expectations in personal property and equipment
        control and that efforts would continue to implement the
        recommendations.

     FEMA concurred with 19 of 20 recommendations regarding
     personal property controls.


Other Grant Program Areas
     Four audit reports included seven recommendations that FEMA
     require improvements in various state grant programs. FEMA and
     the states concurred with the recommendations and have taken
     actions to address them.

     �	 Commonwealth of Pennsylvania: The administrative grant
        process was burdensome, time consuming, and therefore
        inefficient because of the number and multiple levels of
        personnel required for subgrant agreement approval, as well as
        insufficient planning and preparation on the part of the
        Pennsylvania Emergency Management Agency. As a result,
        for each grant year from FYs 2002 through 2004, the
        Commonwealth requested at least one extension of the grant
        period to complete all grant requirements. Pennsylvania
        Emergency Management Agency is currently mapping the
        entire DHS grant program and will develop a plan to reduce the
        time frames associated with the grant signature processes and
        facilitate timely expenditure of grant funds.

     �	 Commonwealth of Pennsylvania: Supporting documentation
        for expenditures charged to federal funds was not accessible
        because of a change in the method for filing the supporting
        documentation. This hampered the Pennsylvania Emergency

     Annual Report to Congress of States’ and Urban Areas’ 

      Management of Homeland Security Grant Programs 


                           Page 15
    Management Agency’s ability to support the allowability of
    grant expenditures. FEMA and the Commonwealth concurred
    with the recommendations. The Commonwealth has taken
    actions to facilitate a more efficient auditing process for
    purchases and is exploring the possibility of using a new
    addition to the accounting system to permit a more automated
    purchasing process.

�	 State of Ohio: During site visits to six counties, three instances
   were identified where counties had used vehicles for general
   purposes instead of those justified by the State Administrative
   Agency. This occurred because of unclear communication to
   the subgrantees by the state agency. While two counties
   stopped using the vehicles after receiving the guidance, one
   continued to do so. FEMA and the State concurred with the
   recommendation regarding unauthorized vehicle use. State
   officials said that they have since verified the county’s need for
   the vehicle in question and that it was no longer being used for
   daily commuting.

�	 State of Michigan: Training needs were not met because
   FY 2003 Part II funds were not used before the grant deadline
   expired. More than 50% of the funds allocated for training to
   seven counties were withdrawn and reallocated by the State for
   other purposes, resulting in lost opportunities for needed
   training. FEMA and the State concurred with the
   recommendation. In its written comments, the State agreed
   that training needs identified for FY 2003 were not met. The
   State also included comments on efforts to publicize and
   promote training opportunities.

�	 State of Utah: For FYs 2004 through 2006, the State did not
   allocate subgrantee grant funds to the regions within the
   required 60 days after grant award. This occurred because the
   Utah Department of Public Safety, Division of Homeland
   Security’s process for allocating grant funds to subgrantees is
   untimely. The State’s process for allocating funds to the
   regions does not begin until after an award is made, delaying
   the regions from obtaining the needed equipment, training, or
   exercises. FEMA and the State concurred with the
   recommendation.

FEMA concurred with all seven recommendations in this area.




Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                      Page 16
Best Practices
      During the course of these performance audits, several effective
      tools and practices were identified for possible use by, and sharing
      with, other states and jurisdictions. We recommended that the
      Administrator, Federal Emergency Management Agency, consider
      evaluating the potential benefits of the following processes to help
      improve grant management:

      �	 The State of New Jersey’s Governor, Attorney General,
         Congressional and State legislators, and Director of the Office
         of Homeland Security and Preparedness have set a positive
         tone that emphasizes the importance of homeland security and
         coordination and collaboration among the various levels of
         government. As early as 2001, New Jersey established the
         New Jersey Domestic Preparedness Task Force as a state
         cabinet level agency with dedicated staff. The State of New
         Jersey implemented a strong support network for procuring and
         delivering emergency response equipment and services, and
         modified its procurement practices to allow counties and other
         local jurisdictions to procure through established state and
         federal contracting vehicles, thereby streamlining and
         expediting the process.

      �	 New Jersey also established a monitoring and oversight
         program that involves site visits and monthly reporting. The
         site review team included eight personnel from the State Police
         Office of Emergency Management and two Office of the
         Attorney General personnel. Audits will be conducted by four
         Field Review Liaisons and two auditors from the State Police.
         Also, monthly reports from the county liaisons are used to
         monitor spending and program performance.

      �	 The Commonwealth of Pennsylvania established nine Regional
         Task Forces to unify subject matter experts, first responders,
         and support agencies. Each Regional Task Force is comprised
         of five to eight member counties, with a core county that
         maintains responsibility for conducting monthly meetings and
         managing the overarching homeland security initiatives within
         its jurisdiction. FEMA staff stated that the Pennsylvania
         Emergency Management Agency continues to be commended
         for developing and engaging in a regional structure that works
         well throughout the Commonwealth and could serve as a
         model for the nation.


      Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs 


                            Page 17
�	 The Commonwealth of Pennsylvania also established an
   Equipment Acquisition Team within the Pennsylvania
   Emergency Management Agency headquarters to handle all
   equipment purchases using grant funds. Staffed by acquisition
   personnel from the Office of the State Purchasing Agent and
   headed by an experienced senior contracting officer, the
   Equipment Acquisition Team consolidated requirements and
   purchased equipment for all first responders throughout the
   Commonwealth. The Commonwealth therefore was able to
   negotiate best available contract prices; provide
   standardization, interoperability, and volume purchasing
   discounts; and relieve financial and administrative burdens
   from the individual local jurisdictions.

�	 The State of Washington adopted and linked its State Strategy
   to the National Priorities and Target Capabilities List and
   established goals to support them. For each project submitted
   for funding, the agency or region must link its proposed project
   to the State Strategy, indicate which National Priority and
   Target Capability it addresses, and establish action plans to
   execute project objectives. This linking of individual projects
   to the State Strategy ensures that funds are used to advance
   State-established strategic goals and objectives, and increases
   the likelihood of successful implementation.

�	 The State of Washington also formed an Equipment
   Subcommittee for its Committee on Homeland Security. All
   equipment purchases proposed by state agencies, regions, and
   local jurisdictions are reviewed by the Equipment
   Subcommittee to verify eligibility with the DHS Authorized
   Equipment List. Where applicable, a representative from the
   State General Services Administration indicates when the
   equipment is available through a State contract. When
   contracts are executed between the State Administrative
   Agency and a subrecipient, proposed equipment items have
   already been reviewed and evaluated, thereby reducing the risk
   of ineligible equipment purchases and achieving cost
   efficiencies by utilizing centralized State procurement
   contracts.




Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs 


                      Page 18
Appendix A
Purpose, Scope, and Methodology


                   The purpose of this report, prepared in accordance with Public
                   Law 110-53, Implementing Recommendations of the 9/11
                   Commission Act of 2007, was to assess and summarize the audit
                   reports on State Homeland Security Program and Urban Areas
                   Security Initiatives grants awarded to states, territories, and the
                   District of Columbia completed during FY 2008. Specifically, we
                   were to determine (1) the number of audits conducted and
                   completed; (2) whether findings are applicable to the mandate;
                   (3) whether the funds awarded were used in accordance with the
                   law, program guidance, and State homeland security plans and
                   other applicable plans; and (4) the extent to which funds awarded
                   enhanced the ability of a grantee to prevent, prepare for, protect
                   against, and respond to natural disasters, acts of terrorism and other
                   man-made disasters.

                   The 11 audit reports included in this annual consolidated report to
                   Congress were the result of nine audits conducted by independent
                   public accounting firms under contract to the Office of Inspector
                   General; the remaining two audits were conducted by the Office of
                   Inspector General. The audits were conducted in the locations
                   indicated in Table 2. A detailed listing and an internet link to each
                   report are included in Appendix B.

                   The individual audits summarized in this report were conducted in
                   accordance with the Government Auditing Standards as prescribed
                   by the Comptroller General of the United States. No additional
                   audit work was performed in preparing this report.




                   Annual Report to Congress of States’ and Urban Areas’ 

                    Management of Homeland Security Grant Programs 


                                         Page 19
Appendix B
Audit Reports Included in this Report


 Report                                        Report         Date       Internet Link
                                               Number        Issued
 The State of New Jersey’s Management of      OIG 07-58     07/12/07     http://www.dhs.gov/xoig/assets/
 State Homeland Security Grants Awarded                                  mgmtrpts/OIG_07-58_Jun07.pdf
 During Fiscal Years 2002 Through 2004
 The Commonwealth of Pennsylvania’s           OIG 08-03     10/16/07     http://www.dhs.gov/xoig/assets/
 Management of State Homeland Security                                   mgmtrpts/OIG_08-03_Oct07.pdf
 Grants Awarded During Fiscal Years 2002
 Through 2004
 Audit of the State of Colorado Homeland      OIG-08-16     12/11/07     http://www.dhs.gov/xoig/assets/
 Security Grant Program                                                  mgmtrpts/OIG_08-16_Dec07.pdf
 The State of Florida’s Management of State   OIG 08-20     12/18/07     http://www.dhs.gov/xoig/assets/
 Homeland Security Grants Awarded During                                 mgmtrpts/OIG_08-20_Dec07.pdf
 Fiscal Years 2002 Through 2004
 The State of Georgia’s Management of         OIG 08-22     01/23/08     http://www.dhs.gov/xoig/assets/
 State Homeland Security Grants Awarded                                  mgmtrpts/OIG_08-22_Jan08.pdf
 During Fiscal Years 2002 Through 2004
 The State of Michigan’s Management of        OIG 08-26     02/15/08     http://www.dhs.gov/xoig/assets/
 State Homeland Security Grants Awarded                                  mgmtrpts/OIG_08-26_Feb08.pdf
 During Fiscal Years 2002 Through 2004
 The State of Ohio’s Management of State      OIG 08-28     02/28/08     http://www.dhs.gov/xoig/assets/
 Homeland Security Grants Awarded During                                 mgmtrpts/OIG_08-28_Feb08.pdf
 Fiscal Years 2002 Through 2004
 Federal and State Oversight of the New       OIG-08-32     03/26/08     http://www.dhs.gov/xoig/assets/
 York City Urban Area Security Initiative                                mgmtrpts/OIG_08-32_Mar08.pdf
 Grant Program
 The State of Utah’s Management of State      OIG-08-83     08/14/08     http://www.dhs.gov/xoig/assets/
 Homeland Security Grants Awarded During                                 mgmtrpts/OIG_08-83_Aug08.pdf
 Fiscal Years 2004 Through 2006
 The State of Washington’s Management of      OIG 08-98     09/26/08     http://www.dhs.gov/xoig/assets/
 State Homeland Security Grants Awarded                                  mgmtrpts/OIG_08-98_Sep08.pdf
 During Fiscal Years 2004 Through 2006
 The State of Arizona’s Management of         OIG 08-99     09/26/08     http://www.dhs.gov/xoig/assets/
 State Homeland Security Grants Awarded                                  mgmtrpts/OIG_08-99_Sep08.pdf
 During Fiscal Years 2004 Through 2006




                         Annual Report to Congress of States’ and Urban Areas’ 

                          Management of Homeland Security Grant Programs 


                                               Page 20 

Appendix C
Scope of State Grant Program Management Audits

                  The purpose of each individual state audit was to determine whether the
                  state effectively and efficiently implemented the State Homeland
                  Security Grant Program, achieved the goals of the program, and spent
                  funds according to grant requirements. The goal of each audit was to
                  identify problems and solutions that would help the state prepare for and
                  respond to terrorist attacks. In addition, the New York Urban area audit
                  objectives were to determine whether the FEMA and the State of New
                  York established effective oversight and program monitoring over New
                  York City urban area, and Urban Areas Security Initiatives preparedness
                  funding enhanced the urban area’s capability to prevent, respond to, and
                  recover from threats or acts of terrorism. The audit enabled us to answer
                  the following researchable questions for each state:

                  �	   Did the State use reasonable methodologies for assessing
                       threat, vulnerability, capability, and prioritized needs?

                  �	   Did the State appropriately allocate funding based on threats,
                       vulnerabilities, capabilities, and priorities?

                  �	   Has the State developed and implemented plans to measure
                       improvements in preparedness as a result of the grants and
                       have such measurement efforts been effective?

                  �	   Are the State’s procurement methodologies (centralized, local,
                       or combination) reasonable and in conformance with its
                       homeland security strategies?

                  �	   Does the State Administrative Agency have procedures in
                       place to monitor funds and activities at the local level to ensure
                       that grant funds are spent according to grant requirements and
                       state-established priorities? Have these monitoring procedures
                       been implemented and are they effective?

                  �	   Did the State comply with cash management requirements and
                       DHS financial and status reporting requirements for the grant
                       programs and did local jurisdictions spend grant funds
                       advanced by the State in a timely manner and, if not, what
                       caused the delays?

                  �	   Were grant funds used according to grant requirements and
                       state-established priorities?




                   Annual Report to Congress of States’ and Urban Areas’ 

                    Management of Homeland Security Grant Programs 


                                         Page 21
Appendix C
Scope of State Grant Program Management Audits

                  �	   Was the time it took the State to get funds/equipment to first
                       responders (from the time the funds/equipment were available
                       to the State until they were disbursed/provided to the
                       jurisdiction) reasonable (auditor judgment), and if not, what
                       caused the delays?

                  �	   Are there best practices that can be identified and shared with
                       other states and DHS?




                   Annual Report to Congress of States’ and Urban Areas’ 

                    Management of Homeland Security Grant Programs 


                                         Page 22
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Annual Report to Congress of States’ and Urban Areas’ 

                       Management of Homeland Security Grant Programs 


                                            Page 23 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
